APPENDIX A

Case: 19-1287

Document: 90-1

Page: 1

Date Filed: 01/25/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________
No. 19-1287

UNITED STATES OF AMERICA
v.
CHARLES J. SENKE,
Appellant

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(District Court No.: 3:16-cr-00373-001)
District Judge: Hon. James M. Munley

Argued July 8, 2020
Before: McKEE, BIBAS, and FUENTES, Circuit Judges.
_______________
JUDGMENT
_______________
This cause came to be considered on appeal from the United States District Court
for the Middle District of Pennsylvania and was argued on July 8, 2020.
On consideration whereof, it is now hereby ORDERED and ADJUDGED by this
Court that the Order of the District Court entered on January 30, 2019 is hereby
AFFIRMED IN PART, VACATED IN PART, and REMANDED for further proceedings.
All of the above in accordance with the Opinion of this Court. Costs will not be
taxed.

Case: 19-1287

Document: 90-1

Page: 2

Date Filed: 01/25/2021

ATTEST:

s/ Patricia S. Dodszuweit
Clerk
Dated: January 25, 2021

2

Case: 19-1287

Document: 90-2

Page: 1

Date Filed: 01/25/2021

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT

UNITED STATES COURT OF APPEALS
CLERK

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: www.ca3.uscourts.gov

January 25, 2021

Robert Epstein, Esq.
Federal Community Defender Office for the Eastern District of Pennsylvania
601 Walnut Street
The Curtis Center, Suite 540 West
Philadelphia, PA 19106
Michelle L. Olshefski, Esq.
Office of United States Attorney
235 North Washington Avenue
P.O. Box 309, Suite 311
Scranton, PA 18503

RE: USA v. Charles Senke
Case Number: 19-1287
District Court Case Number: 3-16-cr-00373-001
ENTRY OF JUDGMENT
Today, January 25, 2021 the Court entered its judgment in the above-captioned matter pursuant
to Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.

Case: 19-1287

Document: 90-2

Page: 2

Date Filed: 01/25/2021

Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
A party who is entitled to costs pursuant to Fed.R.App.P. 39 must file an itemized and verified
bill of costs within 14 days from the entry of judgment. The bill of costs must be submitted on
the proper form which is available on the court's website.
A mandate will be issued at the appropriate time in accordance with the Fed. R. App. P. 41.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk

By: s/Carmella
Case Manager
267-299-4928

